With Alabama Credit Union, you’ll earn

Interest Rates and Interest Charges

ScoreCard Rewards
®

Based on your creditworthiness
Annual Percentage
Rate (APR) for
Purchase

with your MasterCard Credit Card

APR for Balance
Transfers
APR for Cash
Transfers

We want you to feel good about your money. So we
make it easier to manage your everyday purchases
with our MasterCard® Credit Card. Plus, with rates
as low as 8.9% APR* and ScoreCard Reward points
earned for every dollar spent on retail purchases,
saving money never felt so good.

Penalty APR and
When It Applies
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Federal Reserve
Board

WhAT DO YOU GET with ALABAMA CREDIT UNION’S
MasterCard® Credit Card?

IMPORTANT: Read these directions before completing this application.
 If you are applying for an individual account in your own name and are relying on your own income or assets and not the income or assets of another
person as the basis for repayment of the credit requested, complete only Section A and D.
 If you are applying for a joint account or an account that you and another person will use, complete all Sections, providing information in B about the
joint applicant .
 If you are applying for an individual account, but are relying on income from alimony, child support, or separate maintenance or on the income or
assets of another person as the basis for repayment of the credit requested, complete all Sections to the extent possible, providing information in B
about the person on whose alimony, support, or maintenance payments or income or assets you are relying.
Joint Account
Section A: Applicant 
 Individual
Credit Limit Requested*: $
First Name

 I ndividual Account

 U pdated application for an existing

with Authorized User

account

Credit Union Account Number:
Middle Initial

Last Name

Social Security Number

Address			

Years at Address

City

Cell Phone

State

ZIP Code

Previous Street Address		

Number of Dependents

City

State

ZIP Code		

Name of Employer or Source of Income

Job Title/Occupation

Years with Employer

Business Phone

Business Address

Gross Monthly Income**

Net Monthly Income**

$

$

		

Check One:  Own Home

 Rent

Date of Birth

Home Phone
E-mail Address
Mother’s Maiden Name

Monthly Housing Payment

Name of Mortgage Company or Landlord

Note To Married Applicants: You have the right to apply for a separate account, in your own name.
Income from alimony, child or spousal support need not be disclosed unless you wish it considered as income.

First Name

Middle Initial

Last Name

Social Security Number

Date of Birth

Address

City

State

ZIP Code

Years at Address

Relationship to Applicant/Address if Different from Applicant

Home Phone

Cell Phone

E-mail Address

Name of Employer or Source of Income

Job Title/Occupation

Years with Employer

Business Phone

Gross Monthly Income***

Net Monthly Income***

Monthly Housing Payment

Name of Mortgage Company or Landlord

Check One:  Own Home

 Rent

$

None

None

To learn more about factors to consider
when applying for or using a credit
card, visit the website of the Consumer
Financial Protection Bureau at www.
consumerfinance.gov/learnmore

None

None

Transaction Fees

None

None

None

Penalty Fees:
(NSF)

$20

$20

$20

(Late Payment Fee)

$20

$20

$20

None

None

None

Payment for cash advances, then to Minimum Payment
for purchases, then to the balance of cash advances, then
to the balance of credit purchases. If a payment is ever
late 10 days or more, You agree to pay Us a late charge
of $20.00. If You make a payment by check or other item
which for any reason is dishonored You agree to pay a fee
of $20.00 for each item returned. Proper payment is made
only when the payment is made to the address shown for
payments on Your statement; paid with a check drawn in
U.S. dollars on a U.S. financial institution; or a U.S. dollar
money order; and sent in the return envelope with only
the proper return portion of the statement; with proper
postage. Any other payment method may result in a delay
in Our posting of Your payment. This delay maybe 5 days
or longer. We can accept late payments, partial payments,
or payments with any restrictive writing without losing any
of Our rights under this Agreement. This means that no
payment, including those marked with “paid in full” or with
any other restrictive words, shall operate as an accord
and satisfaction without the prior written approval of one
of Our senior officers. You may not use a postdated check
to make a payment. If You do postdate a payment check,
We may elect to honor it upon presentment or return
it uncredited to the person that presented it, without in
either case waiting for the date shown on the check. We
are not liable to You for any loss or expense incurred
by You arising out of the action We elect to take. You
authorize Us to convert your check into a Substitute
Check under the law commonly referred to as Check 21.
This is converting a check into a copy or electronic format
for processing through the check processing system.
6. Interest Charges. Credit Purchases, Method “G”:
Average Daily Balance (including New Purchases). An
Interest Charge will be imposed on Credit Purchases
only if you elect not to pay the entire New Balance of
purchases shown on your monthly statement for the
previous billing cycle within 25 days from the closing date
of that statement. If you elect not to pay the entire New
Balance of purchases shown on your previous monthly
statement within that 25-day period, an Interest Charge
will be imposed on the unpaid average daily balance
of such Credit Purchases from the previous statement
closing date and on new Credit Purchases from the date
of posting to your account during the current billing cycle,
and will continue to accrue until the closing date of the
billing cycle preceding the date on which the entire New
Balance of purchases is paid in full or until the date of
payment if more than 25 days from the closing date. For
Credit Purchases, the Interest Charge for a billing cycle
is computed by applying the Monthly Periodic Rate to
the average daily balance of Credit Purchases, which
is determined by dividing the sum of the daily balances
during the billing cycle by the number of days in the cycle.
Each daily balance of Credit Purchases is determined
by adding to the outstanding unpaid balance of Credit
Purchases at the beginning of the billing cycle any new
Credit Purchases posted to your account, and subtracting
any payments as received and credits as posted to your
account, but excluding any unpaid Interest Charges.
Cash Advances, Method “A”: Average daily balance.
The Interest Charge on cash advances begins to
accrue on the date you obtain the cash advance or
the first day of the billing cycle in which it is posted to
your account, whichever is later. For Cash Advances,
the Interest Charge for a billing cycle is computed by
applying the Monthly Periodic Rate to the average daily
balance, which is determined by dividing the sum of the
daily balances during the billing cycle by the number of
>> continued

Section D:

Sign Here
You must sign in BOTH PLACES before we can process
your application.
To secure your Account, you grant us a purchase money security
interest under the Uniform Commercial Code in any goods you
purchase through use of the Card. If you default, we will have the
right to recover any of these goods, which have not been paid for
through our application of your payments. You pledge all shares and
/or deposits (including amounts in draft accounts) and payments and
earnings thereon which you now or hereafter may have with us, whether
held jointly, individually, or in trust, as security for any and all monies
advanced or purchases made by the use of the Card and interest
accrued thereon. Your authorize us to take what you owe us out of any
account (except Individual Retirement Accounts) you have with us. Your
signature below this section indicates your agreement to this security
interest and the terms of the section.

X

Signature of Applicant		

Date

Signature of Co-Applicant (if applicable)		

Date

Other Income**(Include Source of Other Income)

Completion Of This Section Required If (1) You are a resident of a community property state (AZ, CA, ID, LA, NM, NV, TX, WA)

$

None

X

*If you do not qualify for the full amount requested, we may approve the qualified amount.
**Alimony, child support, or separate maintenance income need not be disclosed if you do not wish to have it considered as a basis for repaying this obligation.

Section B: Co-Applicant

Your due date is at least 25 days after
the close of each billing cycle. We will
not charge you interest on purchases if
you pay your entire balance by the due
date each month.

The information about the costs of the cards
described in this application is accurate as of
August, 2014. This information may have changed
after that date. To find out what may have changed,
call 888.817.2002. Alabama Credit Union is an
Equal Opportunity Lender. Membership eligibility
required. Your savings federally insured to at
least $250,000 and backed by the full faith
and credit of the United States Government..

5. Payments. Each month You must pay at least the
Minimum Payment shown on Your statement by the date
specified on the statement or no later than 25 days from
the statement closing date, whichever is later. If Your
statement says the payment is “Now Due,” Your payment
is due no later than 25 days from the statement closing
date. You may pay more frequently, pay more than the
Minimum Payment or pay the Total New Balance in full. If
You make extra or larger payments, You are still required
to make at least the Minimum Payment each month Your
Account has a balance (other than a credit balance). The
Minimum Payment is 2.5% of Your Total New Balance or
$25.00, whichever is greater, not to exceed Your Total
New Balance, plus the amount of any prior Minimum
Payments that You have not made, and any amount You
are over Your Credit Line or Credit Limit. The Credit Union
also has the right to demand immediate payment of any
amount by which You are over Your Credit Line or Credit
Limit. Subject to applicable law, Your payments may be
applied to what You owe the Credit Union in any manner
the Credit Union chooses, currently, We apply payments
first to Interest Charges, then to fees, then to Minimum

3. Credit Line. If We approve Your application, We will
establish a self-replenishing Credit Line (Credit Line shall
be synonymous with the term Credit Limit) for You and
notify You of its amount when We issue the Card. You
agree not to let the Account balance exceed this approved
Credit Line. Each payment You make on the Account will
restore Your Credit Line by the amount of the payment
which is applied to principal. You may request an increase
in Your Credit Line only by written application to Us, which

None

How We Will Calculate Your Balance: We use a method called
“Average daily balance (including new purchases)”

4. Credit Information. You authorize Us to investigate
Your credit standing when opening, renewing or
reviewing Your Account, and You authorize Us to disclose
information regarding Your Account to credit bureaus
and other creditors who inquire of Us about Your credit
standing. You authorize Us to get a consumer report
about You now and from time to time in the future; if
You ask You will be told if a consumer report has been
obtained and the name and address of the agency that
supplied the report; We may check Your employment
history and obtain any other information about You; and
We may attempt to verify all information provided on the
application. You acknowledge that You are at least 19 years
of age, that You do not already have a MASTERCARD ®
credit card issued by Alabama Credit Union and have not
applied for such an account within the past six months.

2. Liability for Unauthorized Use and Lost Card
Notification. If You believe Your Card has been lost or
stolen or there has been an unauthorized use of Your
card, You should write to Us immediately at: 220 Paul
W. Bryant Drive East, P.O. Box 862998 Tuscaloosa, AL
35486, or call Us at: 888.817.2002 or 800.991.9461.
You will not be liable for any unauthorized use of Your
card after You notify Us. You may, however, be liable
for unauthorized use that occurs before Your notice
to Us. In any case, if Your Account is one defined as a
Consumer Account subject to Regulation Z, Your liability
will notexceed$50.00. Such liability limits do not apply
when the Card is used to make an electronic fund transfer
or if the Account is not governed by Regulation Z.

None

None

Other Fees
(Over-Limit Fee)

must be approved by Our credit committee or loan officer.
We may from time to time, increase the amount of your
Credit Line, with or without a request by You. We may, at
any time and for any reason not prohibited by law, reduce
Your Credit Line, refuse to make an advance or revoke
Your Card and terminate this Agreement. We may always
reduce Your Credit Line, refuse to make an advance or
revoke Your Card and terminate this Agreement if: You
have failed to comply with this Agreement; You have made
false or misleading statements in any document with Us;
We reevaluate Your creditworthiness and determine that
You are no longer as qualified; or We have reason to
believe Our ability to collect has been degraded. You may
also terminate this Agreement at any time, but termination
by either You or Us does not affect Your obligation to pay
the Account Balance, plus Interest Charges and other
charges. You are also responsible for all charges made
after the termination of Your account unless, they are
unauthorized charges as described in this Agreement.
The Cards remain Our property, and You must recover
and surrender to Us all Cards upon Our request and
upon termination of this Agreement. We have the right
to demand payment immediately upon termination of
the entire Balance owed if the account is terminated.
We may change Your Credit Line from time to
time. If You attempt a transaction which results in
Your total outstanding balance (plus authorizations)
exceeding Your Credit Line, We may: 1) permit the
transaction without raising Your Credit Line; 2) permit
the transaction and treat the amount of the transaction
that is more than the Credit Line as immediately
due; or 3) refuse to permit the transaction. ANY FEE
WILL REDUCE YOUR AVAILABLE CREDIT LINE.

1. Responsibility. If We issue You a Card, You agree
to repay all charges, cash advances, Interest Charge,
and other fees and charges arising from the use of the
Card and the Account by You or anyone that You allow
to use the Card. You also agree to be responsible for
charges made by anyone else to whom You give the
Card or the number on the Card, and this responsibility
continues until the Card and its number is recovered.
You cannot disclaim responsibility by notifying Us, but
We will close the Account for new transactions if You
so request and if You return all Cards. Your obligation
to pay the Account balance continues even though an
agreement, divorce decree or other court judgment
to which We are not a party may direct You or one of
the other persons responsible to pay the Account. Any
person using the Card is jointly and severally responsible
with You for charges he or she makes, but if that person
signs the Card, he or she becomes a party to this
Agreement and is also jointly and generally responsible
for all charges on the Account, including Yours.

None

Annual Fee

Feel good about your money.

In this Agreement the words “You” and “Your” mean
each and all of those who apply for the Card, who use
the Card or the Account, who sign a Card or who sign
this Agreement, jointly and severally. “Card” means
the Alabama Credit Union MASTERCARD credit card
and any duplicates and renewals We issue. All primary
cardholders must be members of Alabama Credit Union.
Any joint cardholder or authorized user who is not a
member of Alabama Credit Union must provide full
identification including Social Security Number, Date
of Birth, and valid driver’s license, passport, or other
approved identification before being issued a card.
“Account” means Your MASTERCARD ® Credit Card
or MASTERCARD ® Card Line of Credit Account with
Us. “We”, “Us” and “Our” mean Alabama Credit Union.
“Use of the Card” or “Use the Card” shall include but,
not be limited to any use of the actual Card, the number
presented on the Card, or any other mechanism used
to purchase something or some service, make a cash
advance, make a balance transfer, or otherwise cause
a charge on the Account. Interest rates on the cards
are 8.9%, 10.9% or 12.9%. The rate is determined by
qualifying credit factors, including your credit score.

12.9% 10.9% 8.9%
12.9% 10.9% 8.9%

Fees

- No annual fee
- 25-day grace period for new purchases
- Price Protection program
- Identity Theft Resolution Services
- Extended Warranty
- Zero Liability Protection
- Auto Rental Insurance
- MasterCard Global ServiceTM
Choose
the level
matches
your needs, and enjoy low rates,
- High credit
limit,that
subject
to approval
convenience
and option
special- benefits
withright
Alabama
Credit
- Balance transfer
save money
away when
youUnion!
transfer your credit card debts to your new Alabama Credit
Union Credit Card

MASTERCARD® CREDIT CARD AGREEMENT
(Keep for your records)

12.9% 10.9% 8.9%

You authorize us to make whatever credit inquiries that we deem
necessary in connection with this credit card application or in the
course of review or collection of any credit extended in reliance on
this application. You authorize and instruct any person or consumer
reporting agency to compile and furnish to us any information that it may
have or obtain in response to such credit inquiries and agree that such
information, along with this application, shall remain our property whether
or not credit is granted. You agree to be bound by the MasterCard® Credit
Card Agreement governing you Account(s). By signing below, you certify
that the information provided herein by you is complete and true, and is
furnished for the purpose of obtaining credit.
CAUTION — IT IS IMPORTANT THAT YOU THOROUGHLY
READ THE CONTRACT BEFORE YOU SIGN IT.

X

Signature of Applicant		

Date

Signature of Co-Applicant (if applicable)		

Date

X

Section C: Balance Transfer Request
Why pay higher interest rates or fees on your other credit cards? Transfer your balances to your new Alabama CU MasterCard® Credit Card!
Simply complete this form to start saving with this low fixed rate. We’ll take care of the rest. Maximum total Balance Transfer Request amount is
$25,000 and will be based on your approved credit limit. Minimum amount is $50. Please use black or blue ink.
1.

2.

3.

Card/Loan Issuer

Account Number

Payment Address

City

Card/Loan Issuer

Account Number

Payment Address

City

Card/Loan Issuer

Account Number

Payment Address

City

$

Specific Amount to Pay
State

FOR CREDIT UNION USE ONLY
Card:  Level 1
Notes:

 Level 2

 Level 3

ZIP Code

$

Specific Amount to Pay
State

ZIP Code

$

Specific Amount to Pay
State

ZIP Code

Date:

C
 DR:
ADR:

Help us process your balance transfers faster by following these guidelines: (1) List the most important transfers first. (2) For Card/Loan Issuer, list the financial
institution (not yourself, MasterCard, or VISA®). (3) Continue to make your payments to these accounts until you hear from us.

MasterCardBrochureApp-Final.indd 1

9/11/14 11:18 AM

With Alabama Credit Union, you’ll earn

Interest Rates and Interest Charges

ScoreCard Rewards
®

Based on your creditworthiness
Annual Percentage
Rate (APR) for
Purchase

with your MasterCard Credit Card

APR for Balance
Transfers
APR for Cash
Transfers

We want you to feel good about your money. So we
make it easier to manage your everyday purchases
with our MasterCard® Credit Card. Plus, with rates
as low as 8.9% APR* and ScoreCard Reward points
earned for every dollar spent on retail purchases,
saving money never felt so good.

Penalty APR and
When It Applies
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Federal Reserve
Board

WhAT DO YOU GET with ALABAMA CREDIT UNION’S
MasterCard® Credit Card?

IMPORTANT: Read these directions before completing this application.
 If you are applying for an individual account in your own name and are relying on your own income or assets and not the income or assets of another
person as the basis for repayment of the credit requested, complete only Section A and D.
 If you are applying for a joint account or an account that you and another person will use, complete all Sections, providing information in B about the
joint applicant .
 If you are applying for an individual account, but are relying on income from alimony, child support, or separate maintenance or on the income or
assets of another person as the basis for repayment of the credit requested, complete all Sections to the extent possible, providing information in B
about the person on whose alimony, support, or maintenance payments or income or assets you are relying.
Joint Account
Section A: Applicant 
 Individual
Credit Limit Requested*: $
First Name

 I ndividual Account

 U pdated application for an existing

with Authorized User

account

Credit Union Account Number:
Middle Initial

Last Name

Social Security Number

Address			

Years at Address

City

Cell Phone

State

ZIP Code

Previous Street Address		

Number of Dependents

City

State

ZIP Code		

Name of Employer or Source of Income

Job Title/Occupation

Years with Employer

Business Phone

Business Address

Gross Monthly Income**

Net Monthly Income**

$

$

		

Check One:  Own Home

 Rent

Date of Birth

Home Phone
E-mail Address
Mother’s Maiden Name

Monthly Housing Payment

Name of Mortgage Company or Landlord

Note To Married Applicants: You have the right to apply for a separate account, in your own name.
Income from alimony, child or spousal support need not be disclosed unless you wish it considered as income.

First Name

Middle Initial

Last Name

Social Security Number

Date of Birth

Address

City

State

ZIP Code

Years at Address

Relationship to Applicant/Address if Different from Applicant

Home Phone

Cell Phone

E-mail Address

Name of Employer or Source of Income

Job Title/Occupation

Years with Employer

Business Phone

Gross Monthly Income***

Net Monthly Income***

Monthly Housing Payment

Name of Mortgage Company or Landlord

Check One:  Own Home

 Rent

$

None

None

To learn more about factors to consider
when applying for or using a credit
card, visit the website of the Consumer
Financial Protection Bureau at www.
consumerfinance.gov/learnmore

None

None

Transaction Fees

None

None

None

Penalty Fees:
(NSF)

$20

$20

$20

(Late Payment Fee)

$20

$20

$20

None

None

None

Payment for cash advances, then to Minimum Payment
for purchases, then to the balance of cash advances, then
to the balance of credit purchases. If a payment is ever
late 10 days or more, You agree to pay Us a late charge
of $20.00. If You make a payment by check or other item
which for any reason is dishonored You agree to pay a fee
of $20.00 for each item returned. Proper payment is made
only when the payment is made to the address shown for
payments on Your statement; paid with a check drawn in
U.S. dollars on a U.S. financial institution; or a U.S. dollar
money order; and sent in the return envelope with only
the proper return portion of the statement; with proper
postage. Any other payment method may result in a delay
in Our posting of Your payment. This delay maybe 5 days
or longer. We can accept late payments, partial payments,
or payments with any restrictive writing without losing any
of Our rights under this Agreement. This means that no
payment, including those marked with “paid in full” or with
any other restrictive words, shall operate as an accord
and satisfaction without the prior written approval of one
of Our senior officers. You may not use a postdated check
to make a payment. If You do postdate a payment check,
We may elect to honor it upon presentment or return
it uncredited to the person that presented it, without in
either case waiting for the date shown on the check. We
are not liable to You for any loss or expense incurred
by You arising out of the action We elect to take. You
authorize Us to convert your check into a Substitute
Check under the law commonly referred to as Check 21.
This is converting a check into a copy or electronic format
for processing through the check processing system.
6. Interest Charges. Credit Purchases, Method “G”:
Average Daily Balance (including New Purchases). An
Interest Charge will be imposed on Credit Purchases
only if you elect not to pay the entire New Balance of
purchases shown on your monthly statement for the
previous billing cycle within 25 days from the closing date
of that statement. If you elect not to pay the entire New
Balance of purchases shown on your previous monthly
statement within that 25-day period, an Interest Charge
will be imposed on the unpaid average daily balance
of such Credit Purchases from the previous statement
closing date and on new Credit Purchases from the date
of posting to your account during the current billing cycle,
and will continue to accrue until the closing date of the
billing cycle preceding the date on which the entire New
Balance of purchases is paid in full or until the date of
payment if more than 25 days from the closing date. For
Credit Purchases, the Interest Charge for a billing cycle
is computed by applying the Monthly Periodic Rate to
the average daily balance of Credit Purchases, which
is determined by dividing the sum of the daily balances
during the billing cycle by the number of days in the cycle.
Each daily balance of Credit Purchases is determined
by adding to the outstanding unpaid balance of Credit
Purchases at the beginning of the billing cycle any new
Credit Purchases posted to your account, and subtracting
any payments as received and credits as posted to your
account, but excluding any unpaid Interest Charges.
Cash Advances, Method “A”: Average daily balance.
The Interest Charge on cash advances begins to
accrue on the date you obtain the cash advance or
the first day of the billing cycle in which it is posted to
your account, whichever is later. For Cash Advances,
the Interest Charge for a billing cycle is computed by
applying the Monthly Periodic Rate to the average daily
balance, which is determined by dividing the sum of the
daily balances during the billing cycle by the number of
>> continued

Section D:

Sign Here
You must sign in BOTH PLACES before we can process
your application.
To secure your Account, you grant us a purchase money security
interest under the Uniform Commercial Code in any goods you
purchase through use of the Card. If you default, we will have the
right to recover any of these goods, which have not been paid for
through our application of your payments. You pledge all shares and
/or deposits (including amounts in draft accounts) and payments and
earnings thereon which you now or hereafter may have with us, whether
held jointly, individually, or in trust, as security for any and all monies
advanced or purchases made by the use of the Card and interest
accrued thereon. Your authorize us to take what you owe us out of any
account (except Individual Retirement Accounts) you have with us. Your
signature below this section indicates your agreement to this security
interest and the terms of the section.

X

Signature of Applicant		

Date

Signature of Co-Applicant (if applicable)		

Date

Other Income**(Include Source of Other Income)

Completion Of This Section Required If (1) You are a resident of a community property state (AZ, CA, ID, LA, NM, NV, TX, WA)

$

None

X

*If you do not qualify for the full amount requested, we may approve the qualified amount.
**Alimony, child support, or separate maintenance income need not be disclosed if you do not wish to have it considered as a basis for repaying this obligation.

Section B: Co-Applicant

Your due date is at least 25 days after
the close of each billing cycle. We will
not charge you interest on purchases if
you pay your entire balance by the due
date each month.

The information about the costs of the cards
described in this application is accurate as of
August, 2014. This information may have changed
after that date. To find out what may have changed,
call 888.817.2002. Alabama Credit Union is an
Equal Opportunity Lender. Membership eligibility
required. Your savings federally insured to at
least $250,000 and backed by the full faith
and credit of the United States Government..

5. Payments. Each month You must pay at least the
Minimum Payment shown on Your statement by the date
specified on the statement or no later than 25 days from
the statement closing date, whichever is later. If Your
statement says the payment is “Now Due,” Your payment
is due no later than 25 days from the statement closing
date. You may pay more frequently, pay more than the
Minimum Payment or pay the Total New Balance in full. If
You make extra or larger payments, You are still required
to make at least the Minimum Payment each month Your
Account has a balance (other than a credit balance). The
Minimum Payment is 2.5% of Your Total New Balance or
$25.00, whichever is greater, not to exceed Your Total
New Balance, plus the amount of any prior Minimum
Payments that You have not made, and any amount You
are over Your Credit Line or Credit Limit. The Credit Union
also has the right to demand immediate payment of any
amount by which You are over Your Credit Line or Credit
Limit. Subject to applicable law, Your payments may be
applied to what You owe the Credit Union in any manner
the Credit Union chooses, currently, We apply payments
first to Interest Charges, then to fees, then to Minimum

3. Credit Line. If We approve Your application, We will
establish a self-replenishing Credit Line (Credit Line shall
be synonymous with the term Credit Limit) for You and
notify You of its amount when We issue the Card. You
agree not to let the Account balance exceed this approved
Credit Line. Each payment You make on the Account will
restore Your Credit Line by the amount of the payment
which is applied to principal. You may request an increase
in Your Credit Line only by written application to Us, which

None

How We Will Calculate Your Balance: We use a method called
“Average daily balance (including new purchases)”

4. Credit Information. You authorize Us to investigate
Your credit standing when opening, renewing or
reviewing Your Account, and You authorize Us to disclose
information regarding Your Account to credit bureaus
and other creditors who inquire of Us about Your credit
standing. You authorize Us to get a consumer report
about You now and from time to time in the future; if
You ask You will be told if a consumer report has been
obtained and the name and address of the agency that
supplied the report; We may check Your employment
history and obtain any other information about You; and
We may attempt to verify all information provided on the
application. You acknowledge that You are at least 19 years
of age, that You do not already have a MASTERCARD ®
credit card issued by Alabama Credit Union and have not
applied for such an account within the past six months.

2. Liability for Unauthorized Use and Lost Card
Notification. If You believe Your Card has been lost or
stolen or there has been an unauthorized use of Your
card, You should write to Us immediately at: 220 Paul
W. Bryant Drive East, P.O. Box 862998 Tuscaloosa, AL
35486, or call Us at: 888.817.2002 or 800.991.9461.
You will not be liable for any unauthorized use of Your
card after You notify Us. You may, however, be liable
for unauthorized use that occurs before Your notice
to Us. In any case, if Your Account is one defined as a
Consumer Account subject to Regulation Z, Your liability
will notexceed$50.00. Such liability limits do not apply
when the Card is used to make an electronic fund transfer
or if the Account is not governed by Regulation Z.

None

None

Other Fees
(Over-Limit Fee)

must be approved by Our credit committee or loan officer.
We may from time to time, increase the amount of your
Credit Line, with or without a request by You. We may, at
any time and for any reason not prohibited by law, reduce
Your Credit Line, refuse to make an advance or revoke
Your Card and terminate this Agreement. We may always
reduce Your Credit Line, refuse to make an advance or
revoke Your Card and terminate this Agreement if: You
have failed to comply with this Agreement; You have made
false or misleading statements in any document with Us;
We reevaluate Your creditworthiness and determine that
You are no longer as qualified; or We have reason to
believe Our ability to collect has been degraded. You may
also terminate this Agreement at any time, but termination
by either You or Us does not affect Your obligation to pay
the Account Balance, plus Interest Charges and other
charges. You are also responsible for all charges made
after the termination of Your account unless, they are
unauthorized charges as described in this Agreement.
The Cards remain Our property, and You must recover
and surrender to Us all Cards upon Our request and
upon termination of this Agreement. We have the right
to demand payment immediately upon termination of
the entire Balance owed if the account is terminated.
We may change Your Credit Line from time to
time. If You attempt a transaction which results in
Your total outstanding balance (plus authorizations)
exceeding Your Credit Line, We may: 1) permit the
transaction without raising Your Credit Line; 2) permit
the transaction and treat the amount of the transaction
that is more than the Credit Line as immediately
due; or 3) refuse to permit the transaction. ANY FEE
WILL REDUCE YOUR AVAILABLE CREDIT LINE.

1. Responsibility. If We issue You a Card, You agree
to repay all charges, cash advances, Interest Charge,
and other fees and charges arising from the use of the
Card and the Account by You or anyone that You allow
to use the Card. You also agree to be responsible for
charges made by anyone else to whom You give the
Card or the number on the Card, and this responsibility
continues until the Card and its number is recovered.
You cannot disclaim responsibility by notifying Us, but
We will close the Account for new transactions if You
so request and if You return all Cards. Your obligation
to pay the Account balance continues even though an
agreement, divorce decree or other court judgment
to which We are not a party may direct You or one of
the other persons responsible to pay the Account. Any
person using the Card is jointly and severally responsible
with You for charges he or she makes, but if that person
signs the Card, he or she becomes a party to this
Agreement and is also jointly and generally responsible
for all charges on the Account, including Yours.

None

Annual Fee

Feel good about your money.

In this Agreement the words “You” and “Your” mean
each and all of those who apply for the Card, who use
the Card or the Account, who sign a Card or who sign
this Agreement, jointly and severally. “Card” means
the Alabama Credit Union MASTERCARD credit card
and any duplicates and renewals We issue. All primary
cardholders must be members of Alabama Credit Union.
Any joint cardholder or authorized user who is not a
member of Alabama Credit Union must provide full
identification including Social Security Number, Date
of Birth, and valid driver’s license, passport, or other
approved identification before being issued a card.
“Account” means Your MASTERCARD ® Credit Card
or MASTERCARD ® Card Line of Credit Account with
Us. “We”, “Us” and “Our” mean Alabama Credit Union.
“Use of the Card” or “Use the Card” shall include but,
not be limited to any use of the actual Card, the number
presented on the Card, or any other mechanism used
to purchase something or some service, make a cash
advance, make a balance transfer, or otherwise cause
a charge on the Account. Interest rates on the cards
are 8.9%, 10.9% or 12.9%. The rate is determined by
qualifying credit factors, including your credit score.

12.9% 10.9% 8.9%
12.9% 10.9% 8.9%

Fees

- No annual fee
- 25-day grace period for new purchases
- Price Protection program
- Identity Theft Resolution Services
- Extended Warranty
- Zero Liability Protection
- Auto Rental Insurance
- MasterCard Global ServiceTM
Choose
the level
matches
your needs, and enjoy low rates,
- High credit
limit,that
subject
to approval
convenience
and option
special- benefits
withright
Alabama
Credit
- Balance transfer
save money
away when
youUnion!
transfer your credit card debts to your new Alabama Credit
Union Credit Card

MASTERCARD® CREDIT CARD AGREEMENT
(Keep for your records)

12.9% 10.9% 8.9%

You authorize us to make whatever credit inquiries that we deem
necessary in connection with this credit card application or in the
course of review or collection of any credit extended in reliance on
this application. You authorize and instruct any person or consumer
reporting agency to compile and furnish to us any information that it may
have or obtain in response to such credit inquiries and agree that such
information, along with this application, shall remain our property whether
or not credit is granted. You agree to be bound by the MasterCard® Credit
Card Agreement governing you Account(s). By signing below, you certify
that the information provided herein by you is complete and true, and is
furnished for the purpose of obtaining credit.
CAUTION — IT IS IMPORTANT THAT YOU THOROUGHLY
READ THE CONTRACT BEFORE YOU SIGN IT.

X

Signature of Applicant		

Date

Signature of Co-Applicant (if applicable)		

Date

X

Section C: Balance Transfer Request
Why pay higher interest rates or fees on your other credit cards? Transfer your balances to your new Alabama CU MasterCard® Credit Card!
Simply complete this form to start saving with this low fixed rate. We’ll take care of the rest. Maximum total Balance Transfer Request amount is
$25,000 and will be based on your approved credit limit. Minimum amount is $50. Please use black or blue ink.
1.

2.

3.

Card/Loan Issuer

Account Number

Payment Address

City

Card/Loan Issuer

Account Number

Payment Address

City

Card/Loan Issuer

Account Number

Payment Address

City

$

Specific Amount to Pay
State

FOR CREDIT UNION USE ONLY
Card:  Level 1
Notes:

 Level 2

 Level 3

ZIP Code

$

Specific Amount to Pay
State

ZIP Code

$

Specific Amount to Pay
State

ZIP Code

Date:

C
 DR:
ADR:

Help us process your balance transfers faster by following these guidelines: (1) List the most important transfers first. (2) For Card/Loan Issuer, list the financial
institution (not yourself, MasterCard, or VISA®). (3) Continue to make your payments to these accounts until you hear from us.

MasterCardBrochureApp-Final.indd 1

9/11/14 11:18 AM

With Alabama Credit Union, you’ll earn

Interest Rates and Interest Charges

ScoreCard Rewards
®

Based on your creditworthiness
Annual Percentage
Rate (APR) for
Purchase

with your MasterCard Credit Card

APR for Balance
Transfers
APR for Cash
Transfers

We want you to feel good about your money. So we
make it easier to manage your everyday purchases
with our MasterCard® Credit Card. Plus, with rates
as low as 8.9% APR* and ScoreCard Reward points
earned for every dollar spent on retail purchases,
saving money never felt so good.

Penalty APR and
When It Applies
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Federal Reserve
Board

WhAT DO YOU GET with ALABAMA CREDIT UNION’S
MasterCard® Credit Card?

IMPORTANT: Read these directions before completing this application.
 If you are applying for an individual account in your own name and are relying on your own income or assets and not the income or assets of another
person as the basis for repayment of the credit requested, complete only Section A and D.
 If you are applying for a joint account or an account that you and another person will use, complete all Sections, providing information in B about the
joint applicant .
 If you are applying for an individual account, but are relying on income from alimony, child support, or separate maintenance or on the income or
assets of another person as the basis for repayment of the credit requested, complete all Sections to the extent possible, providing information in B
about the person on whose alimony, support, or maintenance payments or income or assets you are relying.
Joint Account
Section A: Applicant 
 Individual
Credit Limit Requested*: $
First Name

 I ndividual Account

 U pdated application for an existing

with Authorized User

account

Credit Union Account Number:
Middle Initial

Last Name

Social Security Number

Address			

Years at Address

City

Cell Phone

State

ZIP Code

Previous Street Address		

Number of Dependents

City

State

ZIP Code		

Name of Employer or Source of Income

Job Title/Occupation

Years with Employer

Business Phone

Business Address

Gross Monthly Income**

Net Monthly Income**

$

$

		

Check One:  Own Home

 Rent

Date of Birth

Home Phone
E-mail Address
Mother’s Maiden Name

Monthly Housing Payment

Name of Mortgage Company or Landlord

Note To Married Applicants: You have the right to apply for a separate account, in your own name.
Income from alimony, child or spousal support need not be disclosed unless you wish it considered as income.

First Name

Middle Initial

Last Name

Social Security Number

Date of Birth

Address

City

State

ZIP Code

Years at Address

Relationship to Applicant/Address if Different from Applicant

Home Phone

Cell Phone

E-mail Address

Name of Employer or Source of Income

Job Title/Occupation

Years with Employer

Business Phone

Gross Monthly Income***

Net Monthly Income***

Monthly Housing Payment

Name of Mortgage Company or Landlord

Check One:  Own Home

 Rent

$

None

None

To learn more about factors to consider
when applying for or using a credit
card, visit the website of the Consumer
Financial Protection Bureau at www.
consumerfinance.gov/learnmore

None

None

Transaction Fees

None

None

None

Penalty Fees:
(NSF)

$20

$20

$20

(Late Payment Fee)

$20

$20

$20

None

None

None

Payment for cash advances, then to Minimum Payment
for purchases, then to the balance of cash advances, then
to the balance of credit purchases. If a payment is ever
late 10 days or more, You agree to pay Us a late charge
of $20.00. If You make a payment by check or other item
which for any reason is dishonored You agree to pay a fee
of $20.00 for each item returned. Proper payment is made
only when the payment is made to the address shown for
payments on Your statement; paid with a check drawn in
U.S. dollars on a U.S. financial institution; or a U.S. dollar
money order; and sent in the return envelope with only
the proper return portion of the statement; with proper
postage. Any other payment method may result in a delay
in Our posting of Your payment. This delay maybe 5 days
or longer. We can accept late payments, partial payments,
or payments with any restrictive writing without losing any
of Our rights under this Agreement. This means that no
payment, including those marked with “paid in full” or with
any other restrictive words, shall operate as an accord
and satisfaction without the prior written approval of one
of Our senior officers. You may not use a postdated check
to make a payment. If You do postdate a payment check,
We may elect to honor it upon presentment or return
it uncredited to the person that presented it, without in
either case waiting for the date shown on the check. We
are not liable to You for any loss or expense incurred
by You arising out of the action We elect to take. You
authorize Us to convert your check into a Substitute
Check under the law commonly referred to as Check 21.
This is converting a check into a copy or electronic format
for processing through the check processing system.
6. Interest Charges. Credit Purchases, Method “G”:
Average Daily Balance (including New Purchases). An
Interest Charge will be imposed on Credit Purchases
only if you elect not to pay the entire New Balance of
purchases shown on your monthly statement for the
previous billing cycle within 25 days from the closing date
of that statement. If you elect not to pay the entire New
Balance of purchases shown on your previous monthly
statement within that 25-day period, an Interest Charge
will be imposed on the unpaid average daily balance
of such Credit Purchases from the previous statement
closing date and on new Credit Purchases from the date
of posting to your account during the current billing cycle,
and will continue to accrue until the closing date of the
billing cycle preceding the date on which the entire New
Balance of purchases is paid in full or until the date of
payment if more than 25 days from the closing date. For
Credit Purchases, the Interest Charge for a billing cycle
is computed by applying the Monthly Periodic Rate to
the average daily balance of Credit Purchases, which
is determined by dividing the sum of the daily balances
during the billing cycle by the number of days in the cycle.
Each daily balance of Credit Purchases is determined
by adding to the outstanding unpaid balance of Credit
Purchases at the beginning of the billing cycle any new
Credit Purchases posted to your account, and subtracting
any payments as received and credits as posted to your
account, but excluding any unpaid Interest Charges.
Cash Advances, Method “A”: Average daily balance.
The Interest Charge on cash advances begins to
accrue on the date you obtain the cash advance or
the first day of the billing cycle in which it is posted to
your account, whichever is later. For Cash Advances,
the Interest Charge for a billing cycle is computed by
applying the Monthly Periodic Rate to the average daily
balance, which is determined by dividing the sum of the
daily balances during the billing cycle by the number of
>> continued

Section D:

Sign Here
You must sign in BOTH PLACES before we can process
your application.
To secure your Account, you grant us a purchase money security
interest under the Uniform Commercial Code in any goods you
purchase through use of the Card. If you default, we will have the
right to recover any of these goods, which have not been paid for
through our application of your payments. You pledge all shares and
/or deposits (including amounts in draft accounts) and payments and
earnings thereon which you now or hereafter may have with us, whether
held jointly, individually, or in trust, as security for any and all monies
advanced or purchases made by the use of the Card and interest
accrued thereon. Your authorize us to take what you owe us out of any
account (except Individual Retirement Accounts) you have with us. Your
signature below this section indicates your agreement to this security
interest and the terms of the section.

X

Signature of Applicant		

Date

Signature of Co-Applicant (if applicable)		

Date

Other Income**(Include Source of Other Income)

Completion Of This Section Required If (1) You are a resident of a community property state (AZ, CA, ID, LA, NM, NV, TX, WA)

$

None

X

*If you do not qualify for the full amount requested, we may approve the qualified amount.
**Alimony, child support, or separate maintenance income need not be disclosed if you do not wish to have it considered as a basis for repaying this obligation.

Section B: Co-Applicant

Your due date is at least 25 days after
the close of each billing cycle. We will
not charge you interest on purchases if
you pay your entire balance by the due
date each month.

The information about the costs of the cards
described in this application is accurate as of
August, 2014. This information may have changed
after that date. To find out what may have changed,
call 888.817.2002. Alabama Credit Union is an
Equal Opportunity Lender. Membership eligibility
required. Your savings federally insured to at
least $250,000 and backed by the full faith
and credit of the United States Government..

5. Payments. Each month You must pay at least the
Minimum Payment shown on Your statement by the date
specified on the statement or no later than 25 days from
the statement closing date, whichever is later. If Your
statement says the payment is “Now Due,” Your payment
is due no later than 25 days from the statement closing
date. You may pay more frequently, pay more than the
Minimum Payment or pay the Total New Balance in full. If
You make extra or larger payments, You are still required
to make at least the Minimum Payment each month Your
Account has a balance (other than a credit balance). The
Minimum Payment is 2.5% of Your Total New Balance or
$25.00, whichever is greater, not to exceed Your Total
New Balance, plus the amount of any prior Minimum
Payments that You have not made, and any amount You
are over Your Credit Line or Credit Limit. The Credit Union
also has the right to demand immediate payment of any
amount by which You are over Your Credit Line or Credit
Limit. Subject to applicable law, Your payments may be
applied to what You owe the Credit Union in any manner
the Credit Union chooses, currently, We apply payments
first to Interest Charges, then to fees, then to Minimum

3. Credit Line. If We approve Your application, We will
establish a self-replenishing Credit Line (Credit Line shall
be synonymous with the term Credit Limit) for You and
notify You of its amount when We issue the Card. You
agree not to let the Account balance exceed this approved
Credit Line. Each payment You make on the Account will
restore Your Credit Line by the amount of the payment
which is applied to principal. You may request an increase
in Your Credit Line only by written application to Us, which

None

How We Will Calculate Your Balance: We use a method called
“Average daily balance (including new purchases)”

4. Credit Information. You authorize Us to investigate
Your credit standing when opening, renewing or
reviewing Your Account, and You authorize Us to disclose
information regarding Your Account to credit bureaus
and other creditors who inquire of Us about Your credit
standing. You authorize Us to get a consumer report
about You now and from time to time in the future; if
You ask You will be told if a consumer report has been
obtained and the name and address of the agency that
supplied the report; We may check Your employment
history and obtain any other information about You; and
We may attempt to verify all information provided on the
application. You acknowledge that You are at least 19 years
of age, that You do not already have a MASTERCARD ®
credit card issued by Alabama Credit Union and have not
applied for such an account within the past six months.

2. Liability for Unauthorized Use and Lost Card
Notification. If You believe Your Card has been lost or
stolen or there has been an unauthorized use of Your
card, You should write to Us immediately at: 220 Paul
W. Bryant Drive East, P.O. Box 862998 Tuscaloosa, AL
35486, or call Us at: 888.817.2002 or 800.991.9461.
You will not be liable for any unauthorized use of Your
card after You notify Us. You may, however, be liable
for unauthorized use that occurs before Your notice
to Us. In any case, if Your Account is one defined as a
Consumer Account subject to Regulation Z, Your liability
will notexceed$50.00. Such liability limits do not apply
when the Card is used to make an electronic fund transfer
or if the Account is not governed by Regulation Z.

None

None

Other Fees
(Over-Limit Fee)

must be approved by Our credit committee or loan officer.
We may from time to time, increase the amount of your
Credit Line, with or without a request by You. We may, at
any time and for any reason not prohibited by law, reduce
Your Credit Line, refuse to make an advance or revoke
Your Card and terminate this Agreement. We may always
reduce Your Credit Line, refuse to make an advance or
revoke Your Card and terminate this Agreement if: You
have failed to comply with this Agreement; You have made
false or misleading statements in any document with Us;
We reevaluate Your creditworthiness and determine that
You are no longer as qualified; or We have reason to
believe Our ability to collect has been degraded. You may
also terminate this Agreement at any time, but termination
by either You or Us does not affect Your obligation to pay
the Account Balance, plus Interest Charges and other
charges. You are also responsible for all charges made
after the termination of Your account unless, they are
unauthorized charges as described in this Agreement.
The Cards remain Our property, and You must recover
and surrender to Us all Cards upon Our request and
upon termination of this Agreement. We have the right
to demand payment immediately upon termination of
the entire Balance owed if the account is terminated.
We may change Your Credit Line from time to
time. If You attempt a transaction which results in
Your total outstanding balance (plus authorizations)
exceeding Your Credit Line, We may: 1) permit the
transaction without raising Your Credit Line; 2) permit
the transaction and treat the amount of the transaction
that is more than the Credit Line as immediately
due; or 3) refuse to permit the transaction. ANY FEE
WILL REDUCE YOUR AVAILABLE CREDIT LINE.

1. Responsibility. If We issue You a Card, You agree
to repay all charges, cash advances, Interest Charge,
and other fees and charges arising from the use of the
Card and the Account by You or anyone that You allow
to use the Card. You also agree to be responsible for
charges made by anyone else to whom You give the
Card or the number on the Card, and this responsibility
continues until the Card and its number is recovered.
You cannot disclaim responsibility by notifying Us, but
We will close the Account for new transactions if You
so request and if You return all Cards. Your obligation
to pay the Account balance continues even though an
agreement, divorce decree or other court judgment
to which We are not a party may direct You or one of
the other persons responsible to pay the Account. Any
person using the Card is jointly and severally responsible
with You for charges he or she makes, but if that person
signs the Card, he or she becomes a party to this
Agreement and is also jointly and generally responsible
for all charges on the Account, including Yours.

None

Annual Fee

Feel good about your money.

In this Agreement the words “You” and “Your” mean
each and all of those who apply for the Card, who use
the Card or the Account, who sign a Card or who sign
this Agreement, jointly and severally. “Card” means
the Alabama Credit Union MASTERCARD credit card
and any duplicates and renewals We issue. All primary
cardholders must be members of Alabama Credit Union.
Any joint cardholder or authorized user who is not a
member of Alabama Credit Union must provide full
identification including Social Security Number, Date
of Birth, and valid driver’s license, passport, or other
approved identification before being issued a card.
“Account” means Your MASTERCARD ® Credit Card
or MASTERCARD ® Card Line of Credit Account with
Us. “We”, “Us” and “Our” mean Alabama Credit Union.
“Use of the Card” or “Use the Card” shall include but,
not be limited to any use of the actual Card, the number
presented on the Card, or any other mechanism used
to purchase something or some service, make a cash
advance, make a balance transfer, or otherwise cause
a charge on the Account. Interest rates on the cards
are 8.9%, 10.9% or 12.9%. The rate is determined by
qualifying credit factors, including your credit score.

12.9% 10.9% 8.9%
12.9% 10.9% 8.9%

Fees

- No annual fee
- 25-day grace period for new purchases
- Price Protection program
- Identity Theft Resolution Services
- Extended Warranty
- Zero Liability Protection
- Auto Rental Insurance
- MasterCard Global ServiceTM
Choose
the level
matches
your needs, and enjoy low rates,
- High credit
limit,that
subject
to approval
convenience
and option
special- benefits
withright
Alabama
Credit
- Balance transfer
save money
away when
youUnion!
transfer your credit card debts to your new Alabama Credit
Union Credit Card

MASTERCARD® CREDIT CARD AGREEMENT
(Keep for your records)

12.9% 10.9% 8.9%

You authorize us to make whatever credit inquiries that we deem
necessary in connection with this credit card application or in the
course of review or collection of any credit extended in reliance on
this application. You authorize and instruct any person or consumer
reporting agency to compile and furnish to us any information that it may
have or obtain in response to such credit inquiries and agree that such
information, along with this application, shall remain our property whether
or not credit is granted. You agree to be bound by the MasterCard® Credit
Card Agreement governing you Account(s). By signing below, you certify
that the information provided herein by you is complete and true, and is
furnished for the purpose of obtaining credit.
CAUTION — IT IS IMPORTANT THAT YOU THOROUGHLY
READ THE CONTRACT BEFORE YOU SIGN IT.

X

Signature of Applicant		

Date

Signature of Co-Applicant (if applicable)		

Date

X

Section C: Balance Transfer Request
Why pay higher interest rates or fees on your other credit cards? Transfer your balances to your new Alabama CU MasterCard® Credit Card!
Simply complete this form to start saving with this low fixed rate. We’ll take care of the rest. Maximum total Balance Transfer Request amount is
$25,000 and will be based on your approved credit limit. Minimum amount is $50. Please use black or blue ink.
1.

2.

3.

Card/Loan Issuer

Account Number

Payment Address

City

Card/Loan Issuer

Account Number

Payment Address

City

Card/Loan Issuer

Account Number

Payment Address

City

$

Specific Amount to Pay
State

FOR CREDIT UNION USE ONLY
Card:  Level 1
Notes:

 Level 2

 Level 3

ZIP Code

$

Specific Amount to Pay
State

ZIP Code

$

Specific Amount to Pay
State

ZIP Code

Date:

C
 DR:
ADR:

Help us process your balance transfers faster by following these guidelines: (1) List the most important transfers first. (2) For Card/Loan Issuer, list the financial
institution (not yourself, MasterCard, or VISA®). (3) Continue to make your payments to these accounts until you hear from us.

MasterCardBrochureApp-Final.indd 1

9/11/14 11:18 AM

interest in any other items which are “household
goods” under Federal Reserve Board Regulation AA.

>> continued from other side

You pledge all share and/or deposits (including amounts
in draft accounts) and payments and earnings thereon
which You now or hereafter may have with Us, whether
held jointly, individually or in trust, as security for any and
all monies advanced or purchases made by use of the
Card and any interest accrued thereon. Upon default You
authorize Us to take what You owe Us out of any such
account (except Individual Retirement Accounts) You have
with Us. By use of the card You acknowledge that You
have signed a separate security agreement granting a
security interest in all shares and/or deposits in the Credit
Union (except Individual Retirement Account) including
all accounts from which You have a right to withdraw.

days in the cycle. Each daily balance is determined by
adding to the Previous Balance (the outstanding balance
of your account at the beginning of the billing cycle)
any new Cash Advances received and any new Credit
Purchases posted to your account, and subtracting
any payments as received or credits as posted to your
account but excluding any unpaid Interest Charges.
Applies to MASTERCARD® Level 1 only: The Interest
Charge will be calculated by multiplying the average daily
balance on your Account by the Monthly Periodic Rate of
1.075%, which is an ANNUAL PERCENTAGE RATE of
12.90%.

13. Effect of Agreement. This Agreement is the contract
which applies to all transactions on Your Account even
though the sales, cash advance, credit or other slips
You sign or receive may contain different terms. We
may amend this Agreement at any time without notice
unless, notice is required by law. Any amendment to
this Agreement will take effect on the day it is mailed
unless, advance notice is required by law. Your use
of the Card there after will indicate Your agreement to
the amendments. To the extent the law permits, and
We indicate in Our notice, amendments will apply to
Your existing Account balance as well as to future
transactions. If more than one person executes this
agreement or related application or is otherwise liable
under this Agreement, each of You will be jointly and
severally liable under this Agreement. This means each
of You are responsible for the entire amount owed. Each
of You authorizes the others to make purchases or cash
advances individually or to terminate the Agreement.
You cannot transfer Your rights under this Agreement,
but, Your obligations hereunder shall be binding
upon Your heirs, estate, and personal representative.

Applies to MASTERCARD® Level 2 only: The Interest
Charge will be calculated by multiplying the average daily
balance on your Account by the Monthly Periodic Rate of
.9083%, which is an ANNUAL PERCENTAGE RATE of
10.90%.
Applies to MASTERCARD® Level 3 only: The Interest
Charge will be calculated by multiplying the average daily
balance on your Account by the Monthly Periodic Rate of
.7416%, which is an ANNUAL PERCENTAGE RATE of
8.90%.
All interest rates and Interest Charge are subject to change.
In the event of an increase in these rates or charges We will
provide you at least the minimum notice required by law.
7. Default. You will be in default if You fail to make any
Minimum Payment or other required payment by the date
that it is due. You will also be in default if (a) Your ability
to repay Us is materially reduced by a change in Your
employment, an increase in Your obligations, bankruptcy
or insolvency proceedings involving You, Your death or
Your failure to abide by this Agreement, (b) You break any
promise You have made to Us under this Agreement or
any other agreement You have with Us, (c) any statement
You have made in this Agreement, in connection with this
Agreement or in connection with any other agreement
or application You have with Us is not true, or (d) We
should otherwise feel insecure in receiving payment of
the Account balance for whatever reason. If You are in
default, We have the right to demand immediate payment
of Your full Account Balance at once without notice to You.
If immediate payment is demanded, You agree to continue
paying all Interest Charges, until what You owe has been
paid, and any security given for Your Account may be
applied towards what You owe. In the event of a default,
You agree to pay all costs of collecting the amount You
owe under this agreement including, if the unpaid balance
under this plan is greater than Three Hundred Dollars
($300.00) at the time of collection, reasonable attorney’s
fees if the debt is referred for collection to an attorney
who is not Our employee and if suit is filed, court costs.

14. Statements and Notices. Statements and notices
will be mailed to You at the most recent address
You have given the Credit Union. Notice sent to any
one of You will be considered notice to all of You.
15. Delay in Enforcement. No delay in enforcement of
Our rights under this Agreement will result in any loss
of Our rights or relieve You of any of Your obligations.
16. Invalidity of Provisions and Captions. If any
provision of this Agreement is deemed invalid the
rest of this Agreement will remain in full force and
effect. The paragraph headings are for convenience
only and do not form a part of this Agreement. This
Agreement and any written modifications here to is
the contract which applies to all transactions on this
Account, regardless of contradictory terms on sales,
cash advance, credit or other slips or documents.
17. Governing Law. TO THE EXTENT NOT PROHIBITED
BY LAW, THE TERMS AND CONDITIONS OF THIS
AGREEMENT ARE GOVERNED BY AND CONSTRUED
IN ACCORDANCE WITH THE LAWS OF THE STATE OF
ALABAMA (WITHOUT REGARD TO ITS CONFLICT OF
LAWS PRINCIPLES) AND ANY APPLICABLE FEDERAL
LAW REGARDLESS OF WHERE YOU RESIDE OR
USE YOUR ACCOUNT AT ANY TIME. This choice of
law is made because of a strong relationship between
this Agreement and Your account with Alabama Credit
Union which is located in Alabama, and to insure uniform
procedures and interpretation for all of our members,
no matter where they reside or use their accounts.

8. Using the Card. You may use the card issued to You
to make purchases in person, over the internet, by mail
or telephone from merchants and others who accept
MASTERCARD ® cards. In addition, You may obtain cash
advances from the Credit Union, from other financial
institutions participating in the MASTERCARD ® program
and from automated teller machines (ATMs), such as the
MASTERCARD ® ATM Network, which provide access to
the MASTERCARD ® system. (Not all ATMs provide such
access). You will need to use Your Personal Identification
Number (PIN) to obtain a cash advance from an ATM. If
You use the Card to purchase “Cash Equivalents”, such
as foreign currency, money orders, travelers checks,
wire transfers, person to person money transfers, out-

18. Signatures and Copies of Agreement. By

of-network bill payments, bets, lottery tickets, or casino
gaming chips, or make a balance transfer, We may treat
these as cash advances. You agree to comply with all
laws when using Your Card. You agree not to use the
Card for any illegal activity including internet gambling.
Display of the MASTERCARD ® logo does not mean that
the online merchant or the activity You are engaging in is
legal. You agree to hold Us harmless for any damages or
other liability arising from a transaction initiated by You
or Your authorized user for the purpose of conducting
an illegal activity. We reserve the right to decline
authorization of transactions for activities We believe
may violate law or pose significant risk to Us. The monthly
statement will identify the merchant, electronic terminal
or financial institution at which transactions were made,
but sales, cash advance, credit or other slips cannot be
returned with the statement. You agree to retain the copy
of such slips furnished at the time of the transaction in
order to verify the monthly statement. We may make a
reasonable charge for photocopies of slips You request.

signing the Application, or Card, or use of the Card,
You agree to the terms of this Agreement. You should
keep the Agreement for Your records. You agree to
sign (and if appropriate, have authorized users sign) the
card(s) in the place provided for authorized signature.
19. Negative Information Notice. We may report
information about Your account to credit bureaus.
Late payments, missed payments, or other defaults on
Your account may be reflected in Your credit report.
If Your Account is eligible for emergency cash and/
or emergency card replacement services, and You
request such service, You agree that We may provide
personal information about You and Your account that
is necessary to provide You with the requested service.
20. Ownership of Card. Every Card remains Our
property. We have the right to cancel Your Account
at any time with or without written notice to You.
You must return the card if We ask You to do so. You
cannot use the card after it has been cancelled. If a
bankruptcy proceeding is commenced by or against
You, Your card will be cancelled automatically.

9. Returns and Adjustments. Merchants and others
who honor the Card may give credit for returns or
adjustments, and they will do so by sending Us a credit
slip which We will post to Your Account. If Your credits
and payments exceed what You owe Us, We will hold
and apply this credit balance against future purchases
and cash advances, or if it is $1 or more, refund it upon
Your written request or automatically after 6 months.

21. Acceptance of Calls. You agree that if You do not
make payments on Your account in accordance with
this Agreement, or if We are verifying Your use of the
Card, or otherwise We feel We need to contact You in
regards to this Account, You will accept calls from Us
regarding Your account. You agree such calls will not
be “unsolicited” calls for purposes of any state or federal
law. You further agree that any calls made to Us or by
Us may be recorded without any further notice to You.

10. Foreign Transactions. Purchases and cash
advances made in foreign countries and foreign
currencies will be billed to You in U.S. Dollars. The
exchange rate for transactions in foreign currency will
be a rate selected by MASTERCARD ® from the range
of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate MASTERCARD ® itself receives, or the
government mandated rate in effect for the applicable
central processing date, plus any adjustment determined
by Us. All transactions in foreign countries or foreign
currency will be subject to a 1 % conversion or processing
fee. We may implement a dollar limit or number of
transaction per day limit for foreign transactions.
We may also not approve any foreign transactions.
We are required by U. S. law to allow transactions
made in or involving certain countries. You should
contact Us before attempting any foreign transaction.

22. Benefits. We may offer a variety of benefits,
services, or premiums in relation to the Card or
Account. Any benefits or services are not a part of this
Agreement, but are subject to the terms and restrictions
outlined in the benefits brochure and other official
documents provided to You from time to time by or on
behalf of Us. We may adjust, add, or delete benefits
and services at any time and without notice to You.
23. Access Checks. We may offer You the ability to
access Your account with access checks. If We do,
any use of an access check will be considered a cash
advance. If You have a need to stop payment on an
access check, You must provide Us with the access
check number, dollar amount, and payee exactly as
they appear on the access check. If You tell Us orally,
We may require You to put Your request in writing. Any
stop payments will be governed by the terms for stop
payments presented in Our Master Account Agreement
as if the item were a share draft/check written from a
share draft account. You may not post date an access
check. If You do postdate an access check, We may
elect to honor it upon presentment or return it unpaid to
the person that presented it to Us for payment, without
in either case waiting for the date shown on the access
check. We are not liable to You for any loss or expense
incurred by You arising out of the action We elect to take.

11. Plan Merchant Disputes. We are not responsible for
the refusal of any plan merchant or financial institution to
honor Your Card. We are subject to claim sand defenses
(other than tort claims) arising out of goods or services
You purchase with the Card only if You have made a good
faith attempt, but have been unable to obtain satisfaction
from the plan merchant, and: (a) Your purchase was made
in response to an advertisement We sent or participated
in sending You, or (b) Your purchase cost more than
$50 and was made from a plan merchant in Your state
or within 100 miles of Your home. Any other disputes
must be resolved directly with the plan merchant by You.

24. Transactions After Your Account is Closed.
When Your Account is closed, You must contact anyone
authorized to charge transactions to Your account, such
as health clubs, insurance companies, internet providers,
utilities and others. These transactions may continue to be
charged to Your account until You change the billing with
these companies, at Our election. Also, if We believe You
have authorized a transaction or are attempting to use Your
account after You have requested to close the account, We
may allow the transaction to be charged to Your account.

12. Security Interest. To secure Your Account, You
grant Us a purchase money security interest under the
Uniform Commercial Code in any goods You purchase
through use of the Card. If You are in default, We will have
the right to recover any of these goods which have not
been paid for through Our application of Your payments.
Collateral securing other loans You have with Us may
also secure this loan, except that Your home will never be
considered as security for this Account, notwithstanding
anything to the contrary in any other agreement with
Us. Except for the purchase money security interest
You are granting herein, we are not taking a security

25. Payment Check Processing. Your paper check
may be converted into a one time electronic funds

26. Payment Holidays. We may allow You, from time
to time, to skip a monthly payment or make a reduced
payment. We will notify You when these options are
available. If You choose to avail Yourself of these
opportunities, Interest Charges, applicable fees, and
other regular transactions, if any, will accrue on Your
Account in accordance with this Agreement. The
reduced payment amount may be less than Your Interest
Charges. If We offer the option of a reduced payment,
such payment will have to be made on its due date or
it will be subject to a late charge. You must resume
making Your regular Minimum Payment each month
following a payment holiday or reduced payment option.
27. MASTERCARD ® Rules and Regulations. The
services provided to You under this Agreement are made
possible by Alabama Credit Union’s status as a licensee
of MASTERCARD ® U.S.A.. You recognize Alabama
Credit Union’s responsibility to comply with the current
MASTERCARD ® U.S.A. rules and regulations and
changes to them in order to continue to provide these
services.
28. You should keep this Agreement. This is the legal
contract regarding Your use of the Account or Card which
may be issued to You.
29. Addresses. Addresses for payments shall be
shown on your Statement. Any inquiries by You should
be made to the address shown on Your statement
after the phrase “Send Inquiries To:.” The terms of this
Agreement are current as of the Printed date herein.
This information may be changed at any time after its
printing. To find out what may have changed after the
Printed date, You should contact Us at: 220 Paul Bryant
Drive, Tuscaloosa, AL 35401, or call at 1-800-991-4961.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about Your
rights and Our responsibilities under the Fair Credit
Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS
ABOUT YOUR LOAN ACCOUNT STATEMENT.
If You think Your statement is wrong, or if You need more
information about a transaction on Your statement, write
Us on a separate sheet at the address listed on Your
statement. Write to Us as soon as possible. We must hear
from You no later than 60 days after We sent You the first
statement on which the error or problem appeared. You can
telephone Us, but doing so will not preserve Your rights.
In Your letter, give Us the following information: *Your
name and account number. *The dollar amount of the
suspected error. *Describe the error and explain, if You
can, why You believe there is an error. If You need more
information, describe the item You are not sure about.*
If You have authorized Us to pay Your loan account
automatically from Your savings or share draft account, You
can stop the payment on any amount You think is wrong. To
stop the payment Your letter must reach Us three business
days before the automatic payment is scheduled to occur.

YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER
WE RECEIVE YOUR WRITTEN NOTICE.
We must acknowledge Your letter within 30 days,
unless We have corrected the error by then.
Within 90 days, We must either correct the error or
explain why We believe the statement was correct.
After We receive Your letter, We cannot try to collect
any amount You question, or report You as delinquent.
We can continue to send statements to You for the
amount You question, including Interest Charges, and
We can apply any unpaid amount against Your credit
limit. You do not have to pay any questioned amount
while We are investigating, but You are still obligated to
pay the parts of Your statement that are not in question.
If We find that We made a mistake on Your statement,
You will not have to pay any Interest Charges related
to any questioned amount. If We didn’t make a
mistake, You may have to pay Interest Charges, and
You will have to make up any missed payments on the
questioned amount. In either case, We will send You a
statement of the amount You owe and the date it is due.
If You fail to pay the amount that We think You owe, We
may report You as delinquent. However, if Our explanation
does not satisfy You and You write to Us within ten days
telling Us that You still refuse to pay, We must tell anyone
We report You to that You have a question about Your
statement. And, We must tell You the name of anyone We
reported You to. We must tell anyone We report You to that
the matter has been settled between Us when it finally is.
If We don’t follow these rules, We can’t collect the first $50 of
the questioned amount, even if Your statement was correct.
SPECIAL RULE FOR CREDIT CARD PURCHASES.
If You have a problem with the quality of property or
services that You purchased with a credit card, and You
have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining
amount due on the property or services. There are two
limitations on this right: (a) You must have made the
purchase in Your home state or, if not within Your home
state, within 100 miles of Your current mailing address; and
(b) The purchase price must have been more than $50.00.
These limitations do not apply if the credit card
issuer owns or operates the merchant, or mailed
You the advertisement for property or services.
The following notices may apply to You. Their
placement as notices herein do not indicate that these
States have any jurisdiction over this Agreement.
Notice to Ohio Residents. The Ohio laws against
discrimination require that all creditors make credit
equally available to all creditworthy customers, and
that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio Civil
Rights Commission administers compliance with this law.
Notice to California Residents. If You are a married
applicant, You may apply for credit in Your own name.
Married Wisconsin Residents Only. No provision of any
marital property agreement, unilateral statement, or court
order applying to marital property will adversely affect a
creditor’s interests unless, prior to the time credit is granted,
the creditor is furnished a copy of the agreement, statement,
or court order, or has actual knowledge of the provision.
Notice to New York Residents. You may contact the
New York State Banking Department 1 800-518-8866 to
obtain a comparative listing of credit card rates, fees, and
grace periods.

MasterCard® Credit Card
Application

PLACE
POSTAGE
HERE

Alabama Credit Union employs
the latest technology allowing
you to manage your account
from almost anywhere.

transfer. We will not electronically debit Your account
for a payment, which You did not authorize; however,
You authorize an electronic transfer each time You
send Us a paper check. Your payment may appear on
Your bank statement as an “ACH” transaction with Your
check number, the payment amount, and Our name. The
check will not be returned to You. Your funds may be
withdrawn on the same day We receive Your payment.

ACUiBranch®-Enables members to check
balances, transfer funds and perform other
frequent transactions online.
ACUmBranchSM -Brings all the capabilities of
ACUiBranch® to smartphone users.
Bill-Pay-Schedules and sends out both
recurring and one-time electronic bill
payments.

Direct Deposit-Automatically receives
paychecks and other recurring deposits.

Caution: Fold and tape this application closed before mailing.

tape closed
here

AlabamaCU.com • 888.817.2002

MasterCardBrochureApp-Final.indd 2

Credit Card Department
P.O. Box 862998
Tuscaloosa, AL 35486-0027

ACUZipositSM -Deposit a check using your
Smartphone or home scanner.

Feel good about your money.
9/11/14 11:18 AM

interest in any other items which are “household
goods” under Federal Reserve Board Regulation AA.

>> continued from other side

You pledge all share and/or deposits (including amounts
in draft accounts) and payments and earnings thereon
which You now or hereafter may have with Us, whether
held jointly, individually or in trust, as security for any and
all monies advanced or purchases made by use of the
Card and any interest accrued thereon. Upon default You
authorize Us to take what You owe Us out of any such
account (except Individual Retirement Accounts) You have
with Us. By use of the card You acknowledge that You
have signed a separate security agreement granting a
security interest in all shares and/or deposits in the Credit
Union (except Individual Retirement Account) including
all accounts from which You have a right to withdraw.

days in the cycle. Each daily balance is determined by
adding to the Previous Balance (the outstanding balance
of your account at the beginning of the billing cycle)
any new Cash Advances received and any new Credit
Purchases posted to your account, and subtracting
any payments as received or credits as posted to your
account but excluding any unpaid Interest Charges.
Applies to MASTERCARD® Level 1 only: The Interest
Charge will be calculated by multiplying the average daily
balance on your Account by the Monthly Periodic Rate of
1.075%, which is an ANNUAL PERCENTAGE RATE of
12.90%.

13. Effect of Agreement. This Agreement is the contract
which applies to all transactions on Your Account even
though the sales, cash advance, credit or other slips
You sign or receive may contain different terms. We
may amend this Agreement at any time without notice
unless, notice is required by law. Any amendment to
this Agreement will take effect on the day it is mailed
unless, advance notice is required by law. Your use
of the Card there after will indicate Your agreement to
the amendments. To the extent the law permits, and
We indicate in Our notice, amendments will apply to
Your existing Account balance as well as to future
transactions. If more than one person executes this
agreement or related application or is otherwise liable
under this Agreement, each of You will be jointly and
severally liable under this Agreement. This means each
of You are responsible for the entire amount owed. Each
of You authorizes the others to make purchases or cash
advances individually or to terminate the Agreement.
You cannot transfer Your rights under this Agreement,
but, Your obligations hereunder shall be binding
upon Your heirs, estate, and personal representative.

Applies to MASTERCARD® Level 2 only: The Interest
Charge will be calculated by multiplying the average daily
balance on your Account by the Monthly Periodic Rate of
.9083%, which is an ANNUAL PERCENTAGE RATE of
10.90%.
Applies to MASTERCARD® Level 3 only: The Interest
Charge will be calculated by multiplying the average daily
balance on your Account by the Monthly Periodic Rate of
.7416%, which is an ANNUAL PERCENTAGE RATE of
8.90%.
All interest rates and Interest Charge are subject to change.
In the event of an increase in these rates or charges We will
provide you at least the minimum notice required by law.
7. Default. You will be in default if You fail to make any
Minimum Payment or other required payment by the date
that it is due. You will also be in default if (a) Your ability
to repay Us is materially reduced by a change in Your
employment, an increase in Your obligations, bankruptcy
or insolvency proceedings involving You, Your death or
Your failure to abide by this Agreement, (b) You break any
promise You have made to Us under this Agreement or
any other agreement You have with Us, (c) any statement
You have made in this Agreement, in connection with this
Agreement or in connection with any other agreement
or application You have with Us is not true, or (d) We
should otherwise feel insecure in receiving payment of
the Account balance for whatever reason. If You are in
default, We have the right to demand immediate payment
of Your full Account Balance at once without notice to You.
If immediate payment is demanded, You agree to continue
paying all Interest Charges, until what You owe has been
paid, and any security given for Your Account may be
applied towards what You owe. In the event of a default,
You agree to pay all costs of collecting the amount You
owe under this agreement including, if the unpaid balance
under this plan is greater than Three Hundred Dollars
($300.00) at the time of collection, reasonable attorney’s
fees if the debt is referred for collection to an attorney
who is not Our employee and if suit is filed, court costs.

14. Statements and Notices. Statements and notices
will be mailed to You at the most recent address
You have given the Credit Union. Notice sent to any
one of You will be considered notice to all of You.
15. Delay in Enforcement. No delay in enforcement of
Our rights under this Agreement will result in any loss
of Our rights or relieve You of any of Your obligations.
16. Invalidity of Provisions and Captions. If any
provision of this Agreement is deemed invalid the
rest of this Agreement will remain in full force and
effect. The paragraph headings are for convenience
only and do not form a part of this Agreement. This
Agreement and any written modifications here to is
the contract which applies to all transactions on this
Account, regardless of contradictory terms on sales,
cash advance, credit or other slips or documents.
17. Governing Law. TO THE EXTENT NOT PROHIBITED
BY LAW, THE TERMS AND CONDITIONS OF THIS
AGREEMENT ARE GOVERNED BY AND CONSTRUED
IN ACCORDANCE WITH THE LAWS OF THE STATE OF
ALABAMA (WITHOUT REGARD TO ITS CONFLICT OF
LAWS PRINCIPLES) AND ANY APPLICABLE FEDERAL
LAW REGARDLESS OF WHERE YOU RESIDE OR
USE YOUR ACCOUNT AT ANY TIME. This choice of
law is made because of a strong relationship between
this Agreement and Your account with Alabama Credit
Union which is located in Alabama, and to insure uniform
procedures and interpretation for all of our members,
no matter where they reside or use their accounts.

8. Using the Card. You may use the card issued to You
to make purchases in person, over the internet, by mail
or telephone from merchants and others who accept
MASTERCARD ® cards. In addition, You may obtain cash
advances from the Credit Union, from other financial
institutions participating in the MASTERCARD ® program
and from automated teller machines (ATMs), such as the
MASTERCARD ® ATM Network, which provide access to
the MASTERCARD ® system. (Not all ATMs provide such
access). You will need to use Your Personal Identification
Number (PIN) to obtain a cash advance from an ATM. If
You use the Card to purchase “Cash Equivalents”, such
as foreign currency, money orders, travelers checks,
wire transfers, person to person money transfers, out-

18. Signatures and Copies of Agreement. By

of-network bill payments, bets, lottery tickets, or casino
gaming chips, or make a balance transfer, We may treat
these as cash advances. You agree to comply with all
laws when using Your Card. You agree not to use the
Card for any illegal activity including internet gambling.
Display of the MASTERCARD ® logo does not mean that
the online merchant or the activity You are engaging in is
legal. You agree to hold Us harmless for any damages or
other liability arising from a transaction initiated by You
or Your authorized user for the purpose of conducting
an illegal activity. We reserve the right to decline
authorization of transactions for activities We believe
may violate law or pose significant risk to Us. The monthly
statement will identify the merchant, electronic terminal
or financial institution at which transactions were made,
but sales, cash advance, credit or other slips cannot be
returned with the statement. You agree to retain the copy
of such slips furnished at the time of the transaction in
order to verify the monthly statement. We may make a
reasonable charge for photocopies of slips You request.

signing the Application, or Card, or use of the Card,
You agree to the terms of this Agreement. You should
keep the Agreement for Your records. You agree to
sign (and if appropriate, have authorized users sign) the
card(s) in the place provided for authorized signature.
19. Negative Information Notice. We may report
information about Your account to credit bureaus.
Late payments, missed payments, or other defaults on
Your account may be reflected in Your credit report.
If Your Account is eligible for emergency cash and/
or emergency card replacement services, and You
request such service, You agree that We may provide
personal information about You and Your account that
is necessary to provide You with the requested service.
20. Ownership of Card. Every Card remains Our
property. We have the right to cancel Your Account
at any time with or without written notice to You.
You must return the card if We ask You to do so. You
cannot use the card after it has been cancelled. If a
bankruptcy proceeding is commenced by or against
You, Your card will be cancelled automatically.

9. Returns and Adjustments. Merchants and others
who honor the Card may give credit for returns or
adjustments, and they will do so by sending Us a credit
slip which We will post to Your Account. If Your credits
and payments exceed what You owe Us, We will hold
and apply this credit balance against future purchases
and cash advances, or if it is $1 or more, refund it upon
Your written request or automatically after 6 months.

21. Acceptance of Calls. You agree that if You do not
make payments on Your account in accordance with
this Agreement, or if We are verifying Your use of the
Card, or otherwise We feel We need to contact You in
regards to this Account, You will accept calls from Us
regarding Your account. You agree such calls will not
be “unsolicited” calls for purposes of any state or federal
law. You further agree that any calls made to Us or by
Us may be recorded without any further notice to You.

10. Foreign Transactions. Purchases and cash
advances made in foreign countries and foreign
currencies will be billed to You in U.S. Dollars. The
exchange rate for transactions in foreign currency will
be a rate selected by MASTERCARD ® from the range
of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate MASTERCARD ® itself receives, or the
government mandated rate in effect for the applicable
central processing date, plus any adjustment determined
by Us. All transactions in foreign countries or foreign
currency will be subject to a 1 % conversion or processing
fee. We may implement a dollar limit or number of
transaction per day limit for foreign transactions.
We may also not approve any foreign transactions.
We are required by U. S. law to allow transactions
made in or involving certain countries. You should
contact Us before attempting any foreign transaction.

22. Benefits. We may offer a variety of benefits,
services, or premiums in relation to the Card or
Account. Any benefits or services are not a part of this
Agreement, but are subject to the terms and restrictions
outlined in the benefits brochure and other official
documents provided to You from time to time by or on
behalf of Us. We may adjust, add, or delete benefits
and services at any time and without notice to You.
23. Access Checks. We may offer You the ability to
access Your account with access checks. If We do,
any use of an access check will be considered a cash
advance. If You have a need to stop payment on an
access check, You must provide Us with the access
check number, dollar amount, and payee exactly as
they appear on the access check. If You tell Us orally,
We may require You to put Your request in writing. Any
stop payments will be governed by the terms for stop
payments presented in Our Master Account Agreement
as if the item were a share draft/check written from a
share draft account. You may not post date an access
check. If You do postdate an access check, We may
elect to honor it upon presentment or return it unpaid to
the person that presented it to Us for payment, without
in either case waiting for the date shown on the access
check. We are not liable to You for any loss or expense
incurred by You arising out of the action We elect to take.

11. Plan Merchant Disputes. We are not responsible for
the refusal of any plan merchant or financial institution to
honor Your Card. We are subject to claim sand defenses
(other than tort claims) arising out of goods or services
You purchase with the Card only if You have made a good
faith attempt, but have been unable to obtain satisfaction
from the plan merchant, and: (a) Your purchase was made
in response to an advertisement We sent or participated
in sending You, or (b) Your purchase cost more than
$50 and was made from a plan merchant in Your state
or within 100 miles of Your home. Any other disputes
must be resolved directly with the plan merchant by You.

24. Transactions After Your Account is Closed.
When Your Account is closed, You must contact anyone
authorized to charge transactions to Your account, such
as health clubs, insurance companies, internet providers,
utilities and others. These transactions may continue to be
charged to Your account until You change the billing with
these companies, at Our election. Also, if We believe You
have authorized a transaction or are attempting to use Your
account after You have requested to close the account, We
may allow the transaction to be charged to Your account.

12. Security Interest. To secure Your Account, You
grant Us a purchase money security interest under the
Uniform Commercial Code in any goods You purchase
through use of the Card. If You are in default, We will have
the right to recover any of these goods which have not
been paid for through Our application of Your payments.
Collateral securing other loans You have with Us may
also secure this loan, except that Your home will never be
considered as security for this Account, notwithstanding
anything to the contrary in any other agreement with
Us. Except for the purchase money security interest
You are granting herein, we are not taking a security

25. Payment Check Processing. Your paper check
may be converted into a one time electronic funds

26. Payment Holidays. We may allow You, from time
to time, to skip a monthly payment or make a reduced
payment. We will notify You when these options are
available. If You choose to avail Yourself of these
opportunities, Interest Charges, applicable fees, and
other regular transactions, if any, will accrue on Your
Account in accordance with this Agreement. The
reduced payment amount may be less than Your Interest
Charges. If We offer the option of a reduced payment,
such payment will have to be made on its due date or
it will be subject to a late charge. You must resume
making Your regular Minimum Payment each month
following a payment holiday or reduced payment option.
27. MASTERCARD ® Rules and Regulations. The
services provided to You under this Agreement are made
possible by Alabama Credit Union’s status as a licensee
of MASTERCARD ® U.S.A.. You recognize Alabama
Credit Union’s responsibility to comply with the current
MASTERCARD ® U.S.A. rules and regulations and
changes to them in order to continue to provide these
services.
28. You should keep this Agreement. This is the legal
contract regarding Your use of the Account or Card which
may be issued to You.
29. Addresses. Addresses for payments shall be
shown on your Statement. Any inquiries by You should
be made to the address shown on Your statement
after the phrase “Send Inquiries To:.” The terms of this
Agreement are current as of the Printed date herein.
This information may be changed at any time after its
printing. To find out what may have changed after the
Printed date, You should contact Us at: 220 Paul Bryant
Drive, Tuscaloosa, AL 35401, or call at 1-800-991-4961.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about Your
rights and Our responsibilities under the Fair Credit
Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS
ABOUT YOUR LOAN ACCOUNT STATEMENT.
If You think Your statement is wrong, or if You need more
information about a transaction on Your statement, write
Us on a separate sheet at the address listed on Your
statement. Write to Us as soon as possible. We must hear
from You no later than 60 days after We sent You the first
statement on which the error or problem appeared. You can
telephone Us, but doing so will not preserve Your rights.
In Your letter, give Us the following information: *Your
name and account number. *The dollar amount of the
suspected error. *Describe the error and explain, if You
can, why You believe there is an error. If You need more
information, describe the item You are not sure about.*
If You have authorized Us to pay Your loan account
automatically from Your savings or share draft account, You
can stop the payment on any amount You think is wrong. To
stop the payment Your letter must reach Us three business
days before the automatic payment is scheduled to occur.

YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER
WE RECEIVE YOUR WRITTEN NOTICE.
We must acknowledge Your letter within 30 days,
unless We have corrected the error by then.
Within 90 days, We must either correct the error or
explain why We believe the statement was correct.
After We receive Your letter, We cannot try to collect
any amount You question, or report You as delinquent.
We can continue to send statements to You for the
amount You question, including Interest Charges, and
We can apply any unpaid amount against Your credit
limit. You do not have to pay any questioned amount
while We are investigating, but You are still obligated to
pay the parts of Your statement that are not in question.
If We find that We made a mistake on Your statement,
You will not have to pay any Interest Charges related
to any questioned amount. If We didn’t make a
mistake, You may have to pay Interest Charges, and
You will have to make up any missed payments on the
questioned amount. In either case, We will send You a
statement of the amount You owe and the date it is due.
If You fail to pay the amount that We think You owe, We
may report You as delinquent. However, if Our explanation
does not satisfy You and You write to Us within ten days
telling Us that You still refuse to pay, We must tell anyone
We report You to that You have a question about Your
statement. And, We must tell You the name of anyone We
reported You to. We must tell anyone We report You to that
the matter has been settled between Us when it finally is.
If We don’t follow these rules, We can’t collect the first $50 of
the questioned amount, even if Your statement was correct.
SPECIAL RULE FOR CREDIT CARD PURCHASES.
If You have a problem with the quality of property or
services that You purchased with a credit card, and You
have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining
amount due on the property or services. There are two
limitations on this right: (a) You must have made the
purchase in Your home state or, if not within Your home
state, within 100 miles of Your current mailing address; and
(b) The purchase price must have been more than $50.00.
These limitations do not apply if the credit card
issuer owns or operates the merchant, or mailed
You the advertisement for property or services.
The following notices may apply to You. Their
placement as notices herein do not indicate that these
States have any jurisdiction over this Agreement.
Notice to Ohio Residents. The Ohio laws against
discrimination require that all creditors make credit
equally available to all creditworthy customers, and
that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio Civil
Rights Commission administers compliance with this law.
Notice to California Residents. If You are a married
applicant, You may apply for credit in Your own name.
Married Wisconsin Residents Only. No provision of any
marital property agreement, unilateral statement, or court
order applying to marital property will adversely affect a
creditor’s interests unless, prior to the time credit is granted,
the creditor is furnished a copy of the agreement, statement,
or court order, or has actual knowledge of the provision.
Notice to New York Residents. You may contact the
New York State Banking Department 1 800-518-8866 to
obtain a comparative listing of credit card rates, fees, and
grace periods.

MasterCard® Credit Card
Application

PLACE
POSTAGE
HERE

Alabama Credit Union employs
the latest technology allowing
you to manage your account
from almost anywhere.

transfer. We will not electronically debit Your account
for a payment, which You did not authorize; however,
You authorize an electronic transfer each time You
send Us a paper check. Your payment may appear on
Your bank statement as an “ACH” transaction with Your
check number, the payment amount, and Our name. The
check will not be returned to You. Your funds may be
withdrawn on the same day We receive Your payment.

ACUiBranch®-Enables members to check
balances, transfer funds and perform other
frequent transactions online.
ACUmBranchSM -Brings all the capabilities of
ACUiBranch® to smartphone users.
Bill-Pay-Schedules and sends out both
recurring and one-time electronic bill
payments.

Direct Deposit-Automatically receives
paychecks and other recurring deposits.

Caution: Fold and tape this application closed before mailing.

tape closed
here

AlabamaCU.com • 888.817.2002

MasterCardBrochureApp-Final.indd 2

Credit Card Department
P.O. Box 862998
Tuscaloosa, AL 35486-0027

ACUZipositSM -Deposit a check using your
Smartphone or home scanner.

Feel good about your money.
9/11/14 11:18 AM

